   August 17, 2005




Financial Management
Defense Departmental Reporting
System – Audited Financial
Statements Report Map
(D-2005-102)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DDRS-AFS              Defense Departmental Reporting System – Audited Financial
                        Statements
DFAS                  Defense Finance and Accounting Service
DoD IG                Department of Defense Inspector General
GLAC                  General Ledger Account Code
USSGL                 United States Government Standard General Ledger
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                        August 17,2005
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
SUBJECT: Report on Defense Departmental Reporting System - Audited Financial
         Statements Report Map (Report No. D-2005- 102)

      We are providing this report for your information and use. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Carmelo G. Ventimiglia at (3 17) 510-3855 (DSN 699-3855) or Mr. Jack L.
Armstrong at (3 17) 5 10-3846 (DSN 699-3846). For the report distribution, see
Appendix B. The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                      Assistant Inspecto; General
                                      Defense Financial Auditing
                                                Service
                     Department of Defense Office of Inspector General
Report No. D-2005-102                                                            August 17, 2005
      (Project No. D2005-D000FI-0086.000)

           Defense Departmental Reporting System - Audited Financial
                           Statements Report Map

                                          Executive Summary

Who Should Read This Report and Why? DoD personnel who are responsible for
preparing DoD financial statements and for maintaining the Report Map in the Defense
Departmental Reporting System - Audited Financial Statements (DDRS-AFS) should
read this report. The report identifies an internal control weakness regarding the
DDRS-AFS Report Map’s compliance with Department of Treasury guidance.

Background. Office of Management and Budget Bulletin No. 01-09, “Form and Content
of Agency Financial Statements,” September 25, 2001, provides guidance for preparing
agency financial statements. Federal agencies must be able to map * U.S. Government
Standard General Ledger information to the financial statements. The U.S. Government
Standard General Ledger, released annually in the Department of Treasury Financial
Manual, provides technical guidance to standardize Federal agency reporting. The U.S.
Government Standard General Ledger is composed of five major sections including a
chart of accounts, account descriptions, accounting transactions, account attributes, and
report crosswalks. The Defense Finance and Accounting Service provides accounting
support for the preparation and issue of DoD financial statements and reports. The
DDRS-AFS application standardizes the DoD reporting process and produces the annual
and quarterly financial reports based on general ledger account codes and standard
attributes. The DDRS-AFS Report Map details the U.S. Government Standard General
Ledger account codes and respective attributes that make up the reportable items on the
financial statements. The FY 2004 DoD Agency-Wide Financial Statements reported
total assets of $1.2 trillion, total liabilities of $1.7 trillion, net cost of operations of
$0.6 trillion, and budgetary resources of $1.0 trillion.

Results. The DDRS-AFS Report Map used to map trial balance data into the FY 2004
DoD financial statements was different than the Department of Treasury guidance for
516 of 3,557 lines. As a result, the DDRS-AFS Report Map was not fully compliant with
the U.S. Government Standard General Ledger. The financial information in DDRS-AFS
was vulnerable to manipulation by changes to the Report Map, which could cause
inaccurate financial statements. The Defense Finance and Accounting Service should
require reconciliation of the Report Map with the Department of Treasury guidance and
require that any changes to the DDRS-AFS Report Map or deviations from the
Department of Treasury crosswalks be justified, documented, and approved with all
supporting documentation maintained in a central location. (See the Finding section of
the report for the detailed recommendation.)



*
    Assign trial balance data to the proper place on the financial statements.
Management Comments. The Director of Accounting Services at Defense Finance and
Accounting Service concurred with the recommendation; therefore, no further comments
are required. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                         ii
Table of Contents

Executive Summary                              i

Background                                     1

Objective                                      3

Finding
     Report Map Compliance                     4

Appendixes
     A. Scope and Methodology                  9
         Prior Coverage                       10
     B. Report Distribution                   11

Management Comments
     Defense Finance and Accounting Service   13
Background
           Financial Statement Guidance. Office of Management and Budget Bulletin
           No. 01-09, “Form and Content of Agency Financial Statements,”
           September 25, 2001, provides guidance for preparing agency financial statements.
           The bulletin defines the form and content for Federal agency financial statements.
           Federal agencies must be able to map 1 U.S. Government Standard General
           Ledger (USSGL) information to the financial statements.

           The USSGL, released annually in the Department of Treasury Financial Manual,
           provides technical guidance to standardize Federal agency financial reporting.
           The USSGL is composed of five major sections.

                    •    a chart of accounts

                    •    account descriptions

                    •    accounting transactions

                    •    account attributes

                    •    report crosswalks (Treasury Crosswalks)

           The chart of accounts provides a basic 4-digit structure for the USSGL general
           ledger account codes (GLACs). Attributes identify additional information needed
           to meet a specific reporting requirement. The Treasury Crosswalks map GLACs
           and attributes to financial reports in accordance with current reporting guidance
           from the Office of Management and Budget and the Federal Accounting
           Standards Advisory Board. Each combination of GLAC and attribute is a line in
           the Treasury Crosswalks, and the Treasury Crosswalks map each line to a
           reportable element on the financial statements.

           DoD Financial Management Regulation. The DoD Financial Management
           Regulation 7000.14-R, volume 6A, chapter 2, “Financial Reports Roles and
           Responsibilities,” March 2002, requires that the Director of the Defense Finance
           and Accounting Service (DFAS) establish procedures to ensure that the process
           for preparing financial reports is consistent, timely, and auditable, and includes
           controls for accurate reporting. Chapter 2 also requires that DFAS maintain a
           complete and documented audit trail to support the reports it prepares.

           Defense Finance and Accounting Service. DFAS is responsible for providing
           accounting support for the preparation and issuance of DoD financial reports.
           DoD Components’ financial statements are compiled at various DFAS accounting
           sites. DFAS Arlington collects and reviews each DoD Component’s financial




1
    Assign trial balance data to the proper place on the financial statements.



                                                         1
           statements for accuracy, completeness, and consistency. 2 After review, DFAS
           Arlington approves the DoD Component’s financial statements for consolidation
           into the DoD Agency-Wide financial statements.

           Defense Departmental Reporting System-Audited Financial Statements. The
           DDRS-AFS is a DoD application first used to prepare the FY 2000 DoD financial
           statements, Required Supplementary Information, and trend analysis reports. The
           DDRS-AFS application:

                   •   facilitates and standardizes the reporting process using the USSGL,
                       and

                   •   provides for a more efficient reporting process by compiling financial
                       information into one DoD Agency-Wide system.

           The DDRS-AFS application produces the annual and quarterly financial reports
           based on GLACs and standard attributes. The DDRS-AFS Report Map (the
           Report Map) details the GLACs and the respective attributes that make up the
           reportable elements on the financial statements. The DDRS-AFS application is
           revised annually to accommodate changes in financial reporting requirements and
           changes to the Treasury Crosswalks. The FY 2004 Report Map contained
           3,557 lines to populate the Balance Sheet; the Statements of Net Cost, Changes in
           Net Position, Budgetary Resources, Financing, and Custodial Activity; the
           Reclassified Balance Sheet; and the Reclassified Statements of Net Cost and
           Changes in Net Position.

           The Report Map contains six attributes.

                   •   The first attribute indicates whether the GLAC is entity (E) or
                       nonentity (O).

                   •   The second attribute specifies whether the transaction partner is either
                       Federal (F) or Non-Federal (N).

                   •   The third attribute determines whether the GLAC amount is covered
                       by budgetary resources. This attribute is classified as funded (F),
                       covered by unobligated budgetary resources (C), or not covered by
                       budgetary resources (N).

                   •   The fourth attribute indicates whether revenue being reported is
                       exchange revenue (X) or nonexchange revenue (T).

                   •   The fifth attribute indicates which line on the Statement of Financing a
                       GLAC is to appear. For example, an attribute of Fin9 associates, or
                       matches, the GLAC with item 9 (Other Resources) on the Statement of
                       Financing.

                   •   The sixth attribute contains any additional information needed.

2
    Responsibility for preparing the DoD Agency-Wide financial statements has been moved to DFAS
    Indianapolis.



                                                    2
          A specific GLAC and attribute combination can appear on more than one line of
          the Report Map. For example, the Report Map has five lines for GLAC and
          attribute combination 7111 N X Fin26, 3 for each of five financial statements
          (Balance Sheet, Statement of Net Cost, Statement of Financing, Reclassified
          Balance Sheet, and Reclassified Statement of Net Cost). The GLAC and attribute
          combinations in the Report Map should produce the same financial reporting as
          the Treasury Crosswalks.

          DoD Agency-Wide Financial Statements. The Principal FY 2004 DoD
          Agency-Wide Financial Statements consisted of the Consolidated Balance Sheet,
          Consolidated Statements of Net Cost and Changes in Net Position, Combined
          Statements of Budgetary Resources and Financing, Statement of Custodial
          Activity, and supporting notes. The FY 2004 DoD Agency-Wide Financial
          Statements reported total assets of $1.2 trillion, total liabilities of $1.7 trillion, net
          cost of operations of $0.6 trillion, and budgetary resources of $1.0 trillion. In
          addition, DFAS used DDRS-AFS to produce financial statements for the other
          DoD reporting entities and reclassified statements for the Department of the
          Treasury.


Objective
          Our audit objective was to determine whether the DDRS-AFS Report Map used
          to prepare the DoD financial statements complied with Office of Management and
          Budget and Department of Treasury guidance. See Appendix A for a discussion
          of the scope and methodology.




3
    Gains on Disposition of Investments (GLAC 7111), Non-Federal (N), Exchange Revenue (X),
    Revaluation of Assets or Liabilities (Fin26-item 26 of the Statement of Financing).



                                                   3
           Report Map Compliance
           The Report Map used to map trial balance data into the FY 2004 DoD
           financial statements differed from the Treasury Crosswalks for
           516 (15 percent) of 3,557 lines. DFAS did not have adequate controls to
           ensure that the Report Map and Treasury Crosswalks were reconciled and
           that the differences were properly documented, justified, and corrected. In
           addition, changes to the Report Map were not adequately documented and
           justified. As a result, the Report Map was not fully compliant with the
           USSGL and the financial information in DDRS-AFS was vulnerable to
           manipulation by changes to the Report Map, which could cause inaccurate
           financial statements.


Crosswalk Differences
    The Report Map was not fully compliant with the USSGL because it differed
    from the Treasury Crosswalks for 516 (15 percent) of 3,557 lines. The Federal
    Financial Management Improvement Act of 1996 requires that Federal financial
    accounting be compliant with the USSGL. The following table categorizes the
    516 differences.

                               Table. Line Differences
              Description                                     Number


     Incorrect or missing attributes                            155


     Lines not in the Report Map                                145

     Inconsistent use of GLAC and attribute                     112
     combinations

     Different line population methods                           56

     Lines not in the Treasury Crosswalks                        48

      Total                                                     516


    Incorrect or Missing Attributes. The DDRS-AFS Report Map had 155 lines
    that did not have the correct combination of GLACs and attributes. For example,
    the Treasury Crosswalks for the Statement of Net Cost included both Federal and
    Non-Federal attributes for GLAC 7280 (Unrealized Losses); however, the Report
    Map only included the Non-Federal attribute.



                                            4
           Lines Not in the Report Map. The Report Map did not contain the same GLAC
           and attribute combination as the Treasury Crosswalks for 145 lines. For example,
           the Treasury Crosswalk for the Statement of Net Cost included GLAC and
           attribute combination 7500 F X, 4 but the Report Map did not include GLAC
           7500.

           Inconsistent Use of GLAC and Attribute Combinations. The Report Map did
           not consistently use GLAC and attribute combinations in all applicable financial
           statements for 112 lines. For example, the Report Map included GLAC and
           attribute combination 5750 F T Fin14 “Distributed Offsetting Receipt” 5 in the
           Balance Sheet and Statement of Financing; however, the Report Map did not
           include this combination for the Statement of Changes in Net Position,
           Reclassified Balance Sheet, and Reclassified Statement of Changes in Net
           Position.

           Different Line Population Methods. For 56 lines, the Report Map did not
           populate financial statement lines in the same manner as the Treasury Crosswalks.
           For example, the Treasury Crosswalks used a combination of 25 GLACs to
           populate “Distributed Offsetting Receipts” on the Statement of Budgetary
           Resources, while the Report Map used only one memorandum account. When the
           Report Map uses a unique method to populate a financial statement line, DFAS
           should thoroughly explain and justify its methodology.

           Lines Not in the Treasury Crosswalks. The Report Map contained 48 GLAC
           and attribute combinations that were not contained in the Treasury Crosswalks.
           For example, the Report Map included GLAC and attribute combination
           7112 F T No BI 6 on “Other Taxes and Receipts” of the Reclassified Statement of
           Changes in Net Position, while the Treasury Crosswalk did not contain
           GLAC 7112.


Documenting, Justifying, and Correcting Procedures
           DFAS did not have adequate controls to ensure that the Report Map complied
           with Treasury and DoD Financial Management Regulation requirements. The
           DoD Financial Management Regulation requires that DFAS establish procedures
           to ensure that the process for preparing financial reports is consistent, timely,
           auditable, and includes controls for accurate reporting. Although DFAS
           established an operating procedure, titled “Defense Departmental Reporting




4
    Distribution of Income-Dividend (GLAC 7500), Federal (F), Exchange Revenue (X).
5
    Expenditure Financing Sources-Transfers-In (GLAC 5750), Federal (F), Nonexchange Revenue (T),
    Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost of Operations (Fin14-
    item 14 on the Statement of Financing), Distributed Offsetting Receipt.
6
    Gains on Disposition of Borrowings (GLAC 7112), Federal (F), Nonexchange Revenue (T), No
    Budgetary Impact (No BI).



                                                    5
           System (DDRS) Mapping Changes Procedures,” 7 it did not adequately address
           internal controls over the Report Map. Specifically, the DFAS operating
           procedure did not require that:

               •    Report Map changes be fully documented, justified, and made only after
                    supervisory review and approval; and

               •    the Report Map and Treasury Crosswalks be reconciled so that differences
                    were identified, invalid differences (errors) were corrected, and valid
                    differences were fully documented and justified.

           Report Map Changes. DFAS personnel made 1,381 Report Map changes from
           August 20 through October 27, 2004, without documenting the justification and
           the supervisory reviews and approvals for them. An internal DDRS-AFS report
           identified the changes made to the Report Map; however, DFAS did not provide
           adequate support for the changes. DFAS personnel stated that a supervisor
           normally received a copy of the requested changes; however, supervisory reviews
           and approvals were not documented. The operating procedure did not require
           documentation, justification, or supervisory review and approvals for Report Map
           changes. As a result, there was no evidence that the Report Map changes were
           necessary and correct. The lack of appropriate internal controls and the
           significant number of Report Map changes increase the risk that errors or
           misstatements could occur in the financial statements.

           Report Map Reconciliation. DFAS had not documented the 516 line differences
           because a complete reconciliation of the Report Map and the Treasury
           Crosswalks had not been performed. On December 21, 2004, we requested that
           DFAS provide supporting documentation to justify the 516 differences. DFAS
           provided partial explanations and supporting documentation for 391 (76 percent)
           of the 516 differences on March 4, 2005. DFAS agreed that the remaining
           125 (24 percent) differences were errors and that the errors would be corrected
           sometime in FY 2005. If the operating procedure had required an annual
           reconciliation of the Report Map with the Treasury Crosswalks, and the
           reconciliation had been performed, these errors could have been identified and
           corrected.

           DFAS provided adequate explanations and supporting documentation for 204 of
           the 391 line differences. However, DFAS had to reconstruct explanations and
           supporting documentation because the evidence either had not been prepared or it
           had not been maintained in a readily accessible location. DFAS provided written
           explanations for the other 187 differences, but did not have sufficient
           documentation to support the explanations. The operating procedure discusses
           the process for making changes to the Report Map; however, it does not provide
           guidance for detecting differences and correcting errors between the Report Map
           and Treasury Crosswalks. The operating procedure should require that valid
           differences between the Report Map and the Treasury Crosswalks be justified,



7
    The operating procedure was only one page, was not dated, and did not indicate that it had been formally
    approved.



                                                       6
           reviewed, approved by a supervisor, and fully documented. It should also require
           that the documentation be maintained in a readily accessible location so the
           support and audit trail do not have to be reconstructed.


Financial Statement Risk
           The financial information in DDRS-AFS was vulnerable to manipulation because
           of the lack of internal controls over the Report Map. The numerous changes to
           the Report Map and the differences between the Report Map and the Treasury
           Crosswalks increase the likelihood of misstatements in the DoD financial
           statements. Three of the differences created a total misstatement of
           $201.9 million (absolute value) on two items 8 on the Statement of Financing and
           one item on the Reclassified Balance Sheet. 9 Fifty-seven of the 516 differences
           related to the Statement of Custodial Activity. DFAS personnel stated that the
           Statement of Custodial Activity was mapped to support the material amounts
           related to custodial activity for the Foreign Military Sales and Iraqi programs, but
           agreed that the Report Map did not comply with the Treasury Crosswalk for the
           Statement of Custodial Activity. DFAS is currently working on a solution to this
           problem.


Recommendation and Management Comments
           We recommend that the Director of the Defense Finance and Accounting
           Service update the operating procedure, titled “Defense Departmental
           Reporting System (DDRS) Mapping Changes Procedures.” At a minimum,
           the operating procedure should require that the Defense Finance and
           Accounting Service:

                 1. Document, justify, and have supervisors approve changes made to
           the Report Map.

                 2. Perform an annual reconciliation of the Report Map with the
           Treasury Crosswalks and:

                            a. Correct invalid Report Map differences.

                            b. Explain and support any valid Report Map differences.

                 3. Maintain supporting documentation for all justifiable differences
           and Report Map changes in a central location.



8
    Resources That Finance the Acquisition of Assets, and Other Resources or Adjustments to Net Obligated
    Resources That do not Affect Net Cost of Operations.
9
    Cumulative Results of Operations.



                                                     7
Management Comments. The Director of Accounting Services at DFAS
concurred with all parts of the Recommendation. The Director of Accounting
Services stated that DFAS will perform reconciliations between the Report Map
and Treasury Crosswalks Report Map quarterly, instead of annually. We consider
the DFAS comments responsive.




                                  8
Appendix A. Scope and Methodology
   We reviewed the DDRS-AFS Report Map used to prepare the FY 2004 DoD
   financial statements to determine whether it complied with guidance from the
   Office of Management and Budget and the Department of Treasury. We
   compared the Report Map to the Treasury Crosswalks published in the
   Department of Treasury Financial Manual to identify any differences between
   them. We discussed the Report Map differences with DFAS personnel to
   determine the reasons for the differences. We examined the procedures and
   processes used by DFAS Arlington personnel to control changes to the Report
   Map and for ensuring the accuracy of the Report Map. In addition, we used the
   DDRS-AFS trial balance data to assess the potential financial statement effect of
   any Report Map differences.

   We followed up on Department of Defense Inspector General (DoD IG) Report
   No. D-2001-165, “Defense Departmental Reporting System - Audited Financial
   Statements,” August 3, 2001. We previously reported that DFAS recorded
   adjustments to correct deficiencies in the Report Map. We reviewed the FY 2004
   DDRS-AFS Journal Voucher Log to determine whether DFAS continued to
   create this type of adjustment. We found that there were no DDRS-AFS journal
   voucher adjustments prepared to correct the Report Map deficiencies.

   We performed this audit from November 2004 through May 2005 in accordance
   with generally accepted government auditing standards.

   We did not review the management control program during this audit. The
   management control program was reviewed as part of the audit of the FY 2004
   Army General Fund Financial Statements. Therefore, a review of the
   management control program was not an announced audit objective.

   Use of Computer-Processed Data. We did not rely on computer-processed data
   to determine whether the Report Map complied with Office of Management and
   Budget and Department of Treasury guidance. The Report Map is a table that
   converts the DDRS-AFS trial balance data into the proper format for presenting
   the DoD financial statements. The Report Map information was compared to
   Department of Treasury guidance to determine the Report Map accuracy. The
   details of the comparison are discussed in the finding. We used the DDRS-AFS
   trial balance data to assess the potential financial statement effect of any Report
   Map differences; however, we did not perform any detailed reliability testing of
   the trial balance data.
   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the Defense Financial Management high-risk area.




                                        9
Prior Coverage
    During the last 5 years, the DoD IG has issued one report, which discussed the
    financial statement crosswalks. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2001-165, “Defense Departmental Reporting System -
    Audited Financial Statements,” August 3, 2001




                                       10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Asuditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        12
Defense Finance and Accounting Service
Comments




                      13
14
15
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Carmelo G. Ventimiglia
Jack L. Armstrong
Kathleen A. Furey
Andrew D. Gum
Adriel E. Braaksma
Thomas W. Shurman
